App. 1
APPENDIX A
Court of Appeals of Ohio
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
-----------------------------------------------------------------------

JOURNAL ENTRY AND ORDER
No. 105953
-----------------------------------------------------------------------

CHARLES HUNT, ET AL.
PLAINTIFFS-APPELLEES
vs.
CITY OF EAST CLEVELAND, ET AL.
DEFENDANTS-APPELLANTS
JUDGMENT:
AFFIRMED
Civil Appeal from the
Cuyahoga County Court of Common Pleas
Case No. CV-11-755540.
BEFORE: E.A. Gallagher, J., Kilbane, A.J., and
Sheehan, J.
RELEASED AND JOURNALIZED: March 28, 2019

App. 2
ATTORNEYS FOR APPELLANTS
Willa M. Hemmons,
Law Director, City of East Cleveland
Heather McCollough
Assistant Law Director
City of East Cleveland
14340 Euclid Avenue
East Cleveland, Ohio 44122
ATTORNEYS FOR APPELLEES
Robert F. DiCello,
Justin J. Hawal,
DiCello Levitt & Casey L.L.C.
7556 Mentor Avenue,
Mentor, Ohio 44060
EILEEN A. GALLAGHER, J.:
Defendants-appellants Todd Carroscia and the
city of East Cleveland (collectively, “appellants”) appeal from a jury verdict in favor of plaintiffs-appellees
Charles Hunt and Marilyn Conard (collectively, “appellees”) resulting from an automobile accident in which
a patrol vehicle driven by East Cleveland Police Officer
Todd Carroscia collided with a vehicle driven by Hunt.
For the reasons that follow, we affirm the trial court’s
judgment.
Factual Background and Procedural History
On October 5, 2008, at approximately 2:00 a.m.,
East Cleveland police officers Todd Carroscia and Scott
Gardner were positioned in separate patrol cars outside of a Cleveland cocktail lounge when a call came in

App. 3
over the radio from another officer, Officer Jonathan
O’Leary, indicating that he was following a possibly
stolen motorcycle. Officers Carroscia and Gardner responded to the call. On the way to the location of the
reportedly stolen motorcycle, Officer Carroscia’s vehicle struck the driver side of Hunt’s vehicle. Conard was
the front seat passenger in Hunt’s vehicle. Hunt and
Conard were seriously injured in the accident.
Hunt and Conard filed a complaint in the Cuyahoga County Court of Common Pleas against East
Cleveland (the “city”), Officer Carroscia and others, alleging that Officer Carroscia’s operation of his police
vehicle constituted willful, wanton and/or reckless misconduct that caused the accident and their injuries.1 In
April 2017, the case proceeded to a jury trial. A summary of the relevant evidence presented at trial follows.

1

This case, originally filed in 2009, has a lengthy procedural
history. It includes a dismissal without prejudice, a refiling in
2011, a removal to federal district court, a decision by the district
court granting summary judgment on all federal claims and remanding the state law claims, appellees’ dismissal of their claims
against several defendants and the trial court’s entry of partial
summary judgment in favor of the remaining defendants, resolving all state law claims except the claim at issue against Officer
Carroscia and East Cleveland. See Hunt v. Cleveland, 8th Dist.
Cuyahoga No. 103468, 2016-Ohio-3176, ¶ 8-10. Most recently,
this court affirmed the trial court’s decision denying appellants’
motion for summary judgment on immunity grounds, concluding
that genuine issues of material fact existed concerning whether
Officer Carroscia “operated his zone car in a wanton, willful, or
reckless manner.” Id. at ¶ 28.

App. 4
Officer Carroscia testified that as he approached
the intersection of East 140th Street and St. Clair Avenue on his way to the location of the reportedly stolen
motorcycle, he had his overhead lights and sirens activated and was “looking for any type of hazard that
might cause [him] an issue.” He testified that he believed he was traveling approximately 40 to 50 miles
per hour as he approached the intersection. He
acknowledged that during the police department’s investigation of the accident, he told the investigating officer that he had been traveling approximately 60 to 65
miles per hour.
East Cleveland categorizes calls for assistance
into various levels, i.e., Code One, Code Two and Code
Three. A Code One call is a “routine call,” such as a call
for service or a minor disturbance. A Code Two call is
an “urgent call,” i.e., the call is to be answered immediately but lights and sirens are not to be used and “all
traffic laws shall be obeyed.” A Code Three call is an
“emergency call,” requiring the use of emergency lights
and sirens, to be answered “immediately but in a manner which will enable the units to reach the scene as
quickly and safely as possible.”
Officer Carroscia testified that he viewed Officer
O’Leary’s call as a Code Three call, requiring the use
of emergency lights and sirens. According to Officer
Carroscia, as he approached the intersection of East
140th Street and St. Clair Avenue, he had a green
light. He could not say whether he slowed down as he
approached the intersection (other than to say he
“might have been going 55 and slowed down to 50”),

App. 5
but indicated that there was no reason to do so because
he had a green light and he had “no obstructions in
that roadway whatsoever” — until Hunt’s vehicle
pulled out in front of him, entering the intersection to
his right. Officer Carroscia stated that he attempted to
avoid hitting Hunt’s vehicle by braking and steering to
the left, but that he was unsuccessful and the vehicles
collided.
Commander Gardner (then Sergeant Gardner)
was driving his vehicle a short distance behind Officer
Carroscia’s vehicle. Commander Gardner did not know
the precise distance between his vehicle and Officer
Carroscia’s vehicle, but stated that he was “close
enough to observe everything that was happening” and
saw the accident unfold. Commander Gardner indicated that the speed limit on the portion of St. Clair
Avenue they were traveling was 25 or 35 miles per
hour. He acknowledged that both he and Officer Carroscia were speeding but could not state at what speed
the vehicles were traveling.
Commander Gardner testified that he responded
to the call as a Code Three call because he believed “a
solo officer by himself with a possible stolen vehicle
would warrant a Code Three lights and sirens response.” He stated that both he and Officer Carroscia
had their emergency lights and sirens activated as
they pulled out of the parking lot and headed toward
the location of the allegedly stolen motorcycle.
Sergeant Cargile also proceeded to the location of
the reportedly stolen motorcycle after hearing Officer

App. 6
O’Leary’s communications with dispatch. He testified
that he responded to the call as a Code Two call. Officer
O’Leary testified that he likewise considered the call
to be a Code Two call.
According to Commander Gardner, as he and Officer Carroscia approached the intersection of East
140th Street and St. Clair Avenue, “[t]here was no need
to brake or slow down at that point” because there was
no traffic on St. Clair Avenue and they were proceeding
through a green light. Commander Gardner testified
that Hunt’s vehicle came “out of nowhere,” speeding
through the intersection and failing to stop at the red
light controlling traffic in his direction. Commander
Gardner testified that he saw Officer Carroscia brake
and “go left of center” in an attempt to avoid contact
with Hunt’s vehicle but that he was unsuccessful and
the two vehicles collided. According to Commander
Garner, the crash occurred at such a high velocity that
the back end of Officer’s Carroscia’s vehicle lifted up
upon impact with Hunt’s car, then slammed down and
pushed Hunt’s car across the intersection into a sign
for the Marathon gas station located on the corner of
the intersection.
Under East Cleveland’s emergency driving policy,
a public safety vehicle responding to an emergency call
approaching an intersection on a green light is to “slow
down to a safe, reasonable speed,” “be alert for pedestrians that may have entered the crosswalk or traffic
that may not be stopping for the red light” and “proceed
with caution.” When approaching an intersection on a
red light, a public safety vehicle responding to an

App. 7
emergency call is to “come to a complete stop to request
that all traffic and pedestrians yield the right-of-way
to [the public safety] vehicle” and “only then * * * proceed, maintaining extreme caution.”
At the time of the accident, Officer Carroscia’s
driver’s license was suspended for failure to pay child
support. Officer Carroscia testified that he did not
learn that his driver’s license had been suspended until after the accident.
Hunt testified that the evening before the accident, he was at a sports banquet at the Fireside
Lounge from 9:00 p.m. until 1:00 a.m. Hunt stated that
he had “a beer or two, a couple drinks” and that he was
“dancing and just having a good time.” Hunt testified
that he left the Fireside Lounge after he received a call
from Conard asking for a ride. He picked Conard up
and was driving to a gas station to get cigarettes, traveling northwest on East 140th Street, when the accident occurred. Hunt testified that he did not see any
emergency lights or hear any police sirens as he approached the intersection of East 140th Street and St.
Clair Avenue. He stated that there were two overhead
traffic lights, hanging side by side, controlling his direction of travel. One traffic light was functioning with
a green light and the other light, to its right, was “just
black.” Hunt stated that because the light on the right
was not functioning, he glanced to the right as he entered the intersection on the green light, “just to make
sure wasn’t nobody coming down the street.” He stated
that he did not have a chance to look to the left. After
looking to the right, and confirming that no one was

App. 8
coming down St. Clair Avenue in that direction, Hunt
next remembered waking up in the hospital.
Conard testified that Hunt picked her up from a
girlfriend’s house in the early morning of October 5,
2008 after he called her and offered to give her a ride
home. Conard indicated that she did not see any emergency lights or hear any sirens as they approached the
intersection. Conard testified that they had a green
light as Hunt entered the intersection and that she
saw it “plain as day.” She stated that if she had seen
lights or heard sirens, she would have told Hunt to stop
because he “wasn’t going fast to where he couldn’t
stop.” As Hunt pulled into the intersection, Conard
heard a “bam.” She then “blacked out.”
Stromboli Douglas was pumping gas at the Marathon gas station on the corner of East 140th Street and
St. Clair Avenue at the time of collision. He testified
that as he was pumping gas, he heard a “vrroom
sound,” i.e., the sound of a hemi engine of a car. He
looked up and saw a black police vehicle (later identified as Officer Carroscia’s patrol vehicle) “riding up” at
“like 70 miles per hour” on St. Clair Avenue. He stated
that the police vehicle did not have its emergency
lights or sirens activated. He also saw a light-colored
vehicle (later identified as Hunt’s vehicle) approaching
the intersection from East 140th Street, traveling “at
a normal speed.” Douglas stated that the intersection
was well-lit and that, from his vantage point, he had
an unobstructed view of the overhead traffic signals for
both the southbound traffic on St. Clair Avenue and
the traffic heading southeast on East 140th Street

App. 9
toward St. Clair Avenue. Douglas testified that at the
time of the collision, vehicles traveling southeast on
East 140th Street toward St. Clair had a green light
and vehicles traveling southbound on St. Clair Avenue
had a red light. Although he could not see the traffic
signal Hunt would have been facing as he traveled
northwest on East 140th Street, Douglas testified that
he was familiar with the intersection and that the traffic signals were the same for traffic heading southeast
and northwest on East 140th Street.
Douglas testified that he saw both vehicles travel
toward the intersection without stopping, but did not
see the collision. He lost sight of the vehicles when they
passed behind some bushes and the sign for the gas
station. However, he heard a “loud boom” from the impact. When he went to see what had happened, he saw
that Officer Carroscia’s vehicle had struck Hunt’s vehicle and had pushed it into the sign for the gas station. Douglas testified that there were a number of
clubs and bars in the area and that “a lot of people”
came out of the clubs and bars and surrounded the gas
station after they heard the crash.
Hunt and Conard sustained serious injuries in the
accident and were taken to the hospital. At approximately 2:45 a.m., hospital staff took a sample of Hunt’s
blood to perform a blood serum alcohol test in connection with his medical care and treatment. At approximately 3:30 a.m., Hunt’s blood serum alcohol level was
reported to be 125 milligrams per deciliter. Appellants
sought to introduce expert testimony from Dr. Heath
Jolliff, a medical toxicologist and emergency medicine

App. 10
physician, that, based on these test results, Hunt was
“impaired” and unable to operate a vehicle safely at the
time of the accident. However, the trial court precluded
a portion of Dr. Jolliff ’s testimony regarding Hunt’s alleged impairment at the time of the accident.
Although both Officer Carroscia and Commander
Gardner’s vehicles were equipped with video equipment, the equipment was not recording at the time of
the accident.
Appellees’ accident reconstruction expert, Detective Mark Rice with the Columbus Police Department’s
Accident Investigation Unit, reconstructed the crash
after the accident. He opined that Officer Carroscia
was traveling a minimum of 70 miles per hour and that
Hunt was traveling a minimum of 18 miles per hour at
the point of impact. He further opined that Officer Carroscia had operated his patrol vehicle with a “perverse
disregard for the safety of persons and property” in violation of applicable policies and procedures.
East Cleveland’s former law director similarly testified that, in her view, Officer Carroscia had not followed the city’s policies and procedures and had acted
“recklessly” in traveling at that “high rate of speed.” As
she explained, she had recommended that Officer Carroscia be terminated for his actions:
As I recall the facts, there was an officer following a car on the east side of the city that
he radioed in the plates and got information
that it was a stolen vehicle. He said I’m following this vehicle and going to try and stop it.

App. 11
He later got a rad — a dispatch from the, from
the officers that this car was not stolen. I don’t
recall whether that was before or after he had
stopped it.
I think that was about the time of the crash at
140th and Saint Clair. I learned that Carroscia was over on Superior at one of the bars,
he and Gardner, overseeing the closing of a
bar. I guess they had some reason to think
something might have happened there that
evening and when they heard this, wow, they
took off like bats out of hell running over there
for absolutely no reason that I could tell. I
mean nobody asked them to come, there was
no radioing of a need for any assistance. It was
just, it was almost like cowboys and Indians,
there’s the Indians, let’s go after them and I
thought that was not good judgment. I
thought that was evidence of a kind of seeking
excitement that ends up in getting a lot of people killed. Clearly to be running at high speed
— I don’t know whether his siren was on or
not. He says it was. I don’t know if his lights
was [sic] flashing or not. He says it was — but
to be speeding through the streets of our city
endangering our citizens without good reason
was a reason for my wanting him no longer
working for the City of East Cleveland.
Ten days after the accident, Officer Carroscia was
terminated for “failure to meet probationary standards.” There was a dispute as to whether Officer Carroscia was actually on probation at the time he was
fired and he was later reinstated.

App. 12
On April 27, 2017, after hearing all the evidence,
the jury returned a verdict in favor of Hunt and
Conard. The jury awarded Hunt $6,119,738 in compensatory damages and Conard $1,590,442 in compensatory damages against appellants. The jury also
awarded Hunt and Conard each $500,000 in punitive
damages against Officer Carroscia.
On May 24, 2017, appellants filed a motion for
judgment notwithstanding the verdict or, alternatively,
for a new trial. Appellants argued that appellees failed
to present sufficient evidence that Officer Carroscia
had operated his police vehicle in a wanton, reckless or
wilful [sic] manner or that his actions were the proximate cause of appellees’ injuries. Appellants also argued that they were entitled to a new trial based on
allegations of juror misconduct and a series of alleged
“cumulative errors,” including the exclusion of evidence
relating to the effect of Hunt’s alcohol consumption,
appellees’ “withdrawal” of their videotaped crossexamination of appellants’ expert, several alleged errors in the jury instructions and the trial court’s failure
to bifurcate liability and damages issues. On June 15,
2017, appellees filed a motion for prejudgment interest.
On June 28, 2017, the trial court entered judgment
on the jury’s verdict. The city and Officer Carroscia appealed, raising eight assignments of error for review:

App. 13
ASSIGNMENT OF ERROR NO. I:
The trial court abused its discretion when it
denied appellants’ motion to bifurcate the
trial.
ASSIGNMENT OF ERROR NO. II:
The trial court abused its discretion when it
advocated for a minimum dollar verdict and
thereby recused a juror for cause.
ASSIGNMENT OF ERROR NO. III:
The trial court erred to appellants’ prejudice
when it refused to allow Dr. Heath [Jolliff ’s]
expert opinion on impairment.
ASSIGNMENT OF ERROR NO. IV:
The trial court abused its discretion when it
refused admission of a key witness’s criminal
record.
ASSIGNMENT OF ERROR NO. V:
The trial court erred to appellants’ prejudice
when it allowed patent juror misconduct in
the courtroom.
ASSIGNMENT OF ERROR NO. VI:
The verdict went against the manifest weight
of the evidence when testimony showed that
Charles Hunt when facing a malfunctioning
traffic light did not look to the left, in the direction of the oncoming police car, prior to entering the intersection.
ASSIGNMENT OF ERROR NO. VII:
The trial court erred to the prejudice of appellants when it disallowed evidence of insurance and government subsidy offsets to
victims[’] medical and living costs.

App. 14
ASSIGNMENT OF ERROR NO. VIII:
The trial court erred in failing to grant appellants’ motion for a new trial.
Pursuant to App.R. 4(B)(2), this court remanded
the case to the trial court for rulings on appellants’ motion for judgment notwithstanding the verdict or a new
trial and appellees’ motion for prejudgment interest.
On June 13, 2018, the trial court summarily denied appellants’ motion for judgment notwithstanding the verdict or a new trial.
On December 11, 2018, the trial court granted appellees’ motion for prejudgment interest and awarded
Hunt $1,958,316.16 in prejudgment interest and
Conard $508,941.44 in prejudgment interest pursuant
to R.C.1343.03(C)(1)(c)(i). According to the trial court,
it awarded prejudgment interest “from the date that
the case was first filed on March 10, 2009 to the date
that the judgment was rendered on April 27, 2017
[sic].” Appellants did not appeal that ruling. Instead,
on December 17, 2018, appellants filed an “opposition
to order granting prejudgment interest” with this
court, asserting that the trial court had erred in awarding prejudgment interest dating back to March 10,
2009 — the date the original complaint was filed — instead of May 18, 2011 — the date instant, refiled action
was filed.
Filing an “opposition” is not a proper means of
challenging a trial court’s ruling on appeal. Because
appellants did not move to amend their notice of appeal or file a new notice of appeal challenging the trial

App. 15
court’s award of prejudgment interest within 30 days
of the entry of the trial court’s order, see App.R. 4(B)(2),
appellants’ “opposition” to the trial court’s award of
prejudgment interest is not properly before this court.
Law and Analysis
Bifurcation of Compensatory and Punitive
Damages Issues
In their first assignment of error, appellants contend that the trial court abused its discretion by denying their motion to bifurcate. Appellants argue that
pursuant to R.C. 2315.21, the trial court had a “mandatory duty” to bifurcate the trial of appellees’ claim
for punitive damages from the trial of its claim for compensatory damages.
R.C. 2315.21(B) provides, in relevant part:
(1) In a tort action that is tried to a jury and
in which a plaintiff makes a claim for compensatory damages and a claim for punitive or exemplary damages, upon the motion of any
party, the trial of the tort action shall be bifurcated as follows:
(a) The initial stage of the trial shall relate
only to the presentation of evidence, and a determination by the jury, with respect to
whether the plaintiff is entitled to recover
compensatory damages for the injury or loss
to person or property from the defendant.
During this stage, no party to the tort action
shall present, and the court shall not permit a

App. 16
party to present, evidence that relates solely
to the issue of whether the plaintiff is entitled
to recover punitive or exemplary damages for
the injury or loss to person or property from
the defendant.
(b) If the jury determines in the initial stage
of the trial that the plaintiff is entitled to recover compensatory damages for the injury or
loss to person or property from the defendant,
evidence may be presented in the second stage
of the trial, and a determination by that jury
shall be made, with respect to whether the
plaintiff additionally is entitled to recover punitive or exemplary damages for the injury or
loss to person or property from the defendant.
(Emphasis added.)
Thus, R.C. 2315.21(B)(1) requires a party seeking
bifurcation of punitive damages issues to file a motion
for such prior to trial. See Havel v. Villa St. Joseph, 131
Ohio St.3d 235, 2012-Ohio-552, 963 N.E.2d 1270, ¶ 13
(“The plain language of R.C. 2315.21(B) creates no ambiguity regarding its application: a trial court, on the
motion of any party, is required to bifurcate a tort action to allow presentation of the claims for compensatory and punitive damages in separate stages.”). In this
case, however, appellants did not file a motion to bifurcate compensatory and punitive damages. Appellants
filed a motion to bifurcate liability and damages. It is
well established that a party cannot claim as error an
issue not raised below. See, e.g., Glendell-Grant v.
Grant, 8th Dist. Cuyahoga No. 105895, 2018-Ohio-1094,
¶ 11; Cleveland Town Ctr., L.L.C. v. Fin. Exchange Co.

App. 17
of Ohio, Inc., 2017-Ohio-384, 83 N.E.3d 383, ¶ 21 (8th
Dist.). Because appellants did not move to bifurcate
compensatory and punitive damages, the trial court
did not err in failing to bifurcate them. Accordingly, we
overrule appellants’ first assignment of error.
Trial Court’s Voir Dire Questioning and Excusal of Prospective Juror for Cause
In their second assignment of error, appellants
contend that the trial court “demonstrated a bias in favor of Plaintiffs” by: (1) “openly advocating for an eight
figure judgment” when questioning potential jurors
during voir dire and (2) excusing prospective juror No.
3 for cause after the juror indicated that he did not
think he could award the plaintiffs an eight-figure
judgment even if the evidence warranted it.
The manner in which voir dire is to be conducted
lies within the sound discretion of the trial court. Gwen
v. Regional Transit Auth., 8th Dist. Cuyahoga No.
82920, 2004-Ohio-628, ¶ 38 (“[A] trial court has ‘great
latitude in deciding what questions should be asked on
voir dire.’ ”), quoting State v. Twyford, 94 Ohio St.3d
340, 345, 763 N.E.2d 122 (2002); see also State v.
Thompson, 141 Ohio St.3d 254, 2014-Ohio-4751, 23
N.E.3d 1096, ¶ 72. “Questions on voir dire must be sufficient to identify prospective jurors who hold views
that would prevent or substantially impair them from
performing the duties required of jurors.” State v. Jackson, 107 Ohio St.3d 53, 2005-Ohio-5981, 836 N.E.2d
1173, ¶ 57. An appellate court will not find prejudicial

App. 18
error in the trial court’s examination of potential jurors
absent an abuse of discretion. Id. at ¶ 28; State v.
Jones, 8th Dist. Cuyahoga No. 101311, 2015-Ohio1818, ¶ 18.
R.C. 2313.17 governs challenges of jurors for
cause. R.C. 2313.17(B) lists nine “good causes for challenge to any person called as a juror.” One of those
“good causes” is that “the person discloses by the person’s answers that the person cannot be a fair and impartial juror or will not follow the law as given to the
person by the court.” R.C. 2313.17(B)(9).
A challenge under R.C. 2313.17(B)(9) is a “principal challenge.” See R.C. 2313.17(C). As this court explained in Cordova v. Emergency Professional Servs.,
2017-Ohio-7245, 96 N.E.3d 906 (8th Dist.):
Under Ohio law, if a principal challenge is
found valid, “the court [must] dismiss the prospective juror, [and may] not rehabilitate or
exercise discretion to seat the prospective juror upon the prospective juror’s pledge of fairness[.]” State v. Swift, 9th Dist. Summit No.
27084, 2014-Ohio-4041, ¶ 4, citing Hall v.
Banc One Mgt. Corp., 114 Ohio St.3d 484,
2007-Ohio-4640, 873 N.E.2d 290. “[W]here a
party establishes the existence of facts supporting a principal challenge, this finding ‘result[s] in automatic disqualification,’ and no
rehabilitation of the potential juror can occur.”
Hall at ¶ 29.
Id. at ¶ 27.

App. 19
In other words, although a trial court has discretion in determining the validity of the challenge for
cause, if a trial court finds facts supporting a valid
principal challenge under R.C. 2313.17(B)(9), i.e., that
a potential juror would not be fair and impartial or
would not follow the law as instructed by the court, the
trial court must disqualify the individual as a juror under R.C. 2313.17(C).
R.C. 2313.17(D) further provides, in relevant part:
In addition to the causes listed in [R.C.
2313.17(B)], any petit juror may be challenged
on suspicion of prejudice against or partiality
for either party * * * or other cause that may
render the juror at the time an unsuitable juror. The validity of the challenge shall be determined by the court and be sustained if the
court has any doubt as to the juror’s being entirely unbiased.
The determination of whether a juror is impartial
or biased involves a judgment of credibility, which may
not be apparent from the record on appeal. Therefore,
a reviewing court will defer to the trial judge who sees
and hears the juror. See, e.g., Chang v. Cleveland Clinic
Found., 8th Dist. Cuyahoga No. 82033, 2003-Ohio6167, ¶ 6 (“ ‘Trial courts have discretion in determining
a juror’s ability to be impartial.’ ”), quoting State v.
Nields, 93 Ohio St.3d 6, 35-36, 752 N.E.2d 859 (2001);
State v. Trimble, 122 Ohio St.3d 297, 2009-Ohio-2961,
911 N.E.2d 242, ¶ 73. “[A] ruling on a challenge to a
juror for cause, pursuant to R.C. 2313.17(B)(9) or
2313.17(D)[,] will not be overturned on appeal unless

App. 20
it appears that the trial court abused its discretion.”
Cordova, 2017-Ohio-7245, 96 N.E.3d 906, at ¶ 20. An
abuse of discretion occurs when the trial court’s decision is unreasonable, arbitrary or unconscionable. Id.
at ¶ 21.
In this case, appellants did not object to any of the
questions the trial court asked potential jurors during
voir dire and did not raise an objection to the trial
court’s excusal of prospective juror No. 3 for cause below. They have, therefore, waived all but plain error.
See, e.g., Sanderfer v. Cuyahoga Metro. Hous. Auth., 8th
Dist. Cuyahoga No. 104720, 2017-Ohio-1552, ¶ 8, citing Schade v. Carnegie Body Co., 70 Ohio St.2d 207,
210, 436 N.E.2d 1001 (1982), and Goldfuss v. Davidson,
79 Ohio St.3d 116, 121-123, 679 N.E.2d 1099 (1997).
Review for plain error is to be conducted “with the utmost caution.” Goldfuss at 121. Plain error is limited
to those “extremely rare cases” in which “exceptional
circumstances require its application to prevent a
manifest miscarriage of justice, and where the error
complained of, if left uncorrected, would have a materially adverse effect on the character of, and public confidence in, judicial proceedings.” Id. at 121; see also
Citizens Bank, N.A. v. Conway, 8th Dist. Cuyahoga No.
106315, 2018-Ohio-2229, ¶ 16.
Appellants argue that a “review of the questions
posited by the trial court clearly demonstrates that the
trial court improperly conveyed to potential jurors,
[its] belief that the Plaintiffs were entitled to substantial damages” and that the trial court’s voir dire questions and subsequent excusal of prospective juror No.

App. 21
3 “affect[ed] the basic fairness of the judicial process,”
constituting plain error. We disagree.
Prospective juror No. 3 joined the panel of prospective jurors after several challenges were exercised as
to other potential jurors. When prospective juror No. 3
joined the panel of prospective jurors, the trial court
inquired whether there was anything he wanted to
bring to the court’s or the parties’ attention based on
the questions he had heard asked of the other prospective jurors that day. Prospective juror No. 3 responded
that he was “[n]ot really in favor of eight-digit payments.” The trial court proceeded to ask prospective juror No. 3 a series of questions directed to determining
whether his disfavor of eight-digit verdicts meant that
he would not award an eight-digit verdict even if the
evidence warranted it. At the conclusion of this initial
round of questioning, the trial court stated:
THE COURT: [I]t’s not fair to anybody if
someone is going to sit there and say I can’t
do that. That’s too much money. It just can’t
be done.
You understand that?
JUROR NO. 3:

Yeah.

THE COURT: So if you’re there, if you’re
there where you’re saying I don’t care what
you show me, I’m never going to give an eightfigure award, then you need to speak that out;
but what I was hearing you tell me was I’ll
give it, but you just better bring the bacon and
show me that it’s worth it.

App. 22
JUROR NO. 3:

Yes.

***
THE COURT: And I don’t have any problem
with you saying you’re going to make them
earn it, but I have a real problem with saying
there’s no way you could ever do it.
JUROR NO. 3:

I understand.

After the trial court completed its initial round of
questioning, appellees’ counsel questioned prospective
juror No. 3. During counsel’s questioning, prospective
juror No. 3 once again expressed his “skepticism” of
large damages awards. He stated that he didn’t know
whether he “believe[d] in” punitive damages, questioned how one could “put a price on” pain and suffering and indicated that intentional conduct was “more
what [he was] thinking” would be required before he
could award an eight-digit verdict. The trial court followed up on counsel’s questions and engaged in a further colloquy with prospective juror No. 3 to determine
whether he could be “fair and impartial” and would
“follow the law”:
THE COURT: * * * You have to be able to ensure me and more importantly, yourself that
if you’re chosen to serve on this panel to hear
this case that you can be fair and impartial,
and you will award a verdict that’s consistent
with the damages that are presented to you,
no matter what that number may be, and
you’re going to follow the law.

App. 23
I don’t care if you come back and award nine
zillion dollars. That’s not the issue of what the
award’s going to be. The issue is going to be
that you have the capacity to do that.
***
And I’m saying to you right now that if this
firm, this law firm that puts on this case, these
lawyers, they present a case to you, and they
do what they’re expected to do, and they do
what they believe they need to do, and that
supports an eight figure verdict, are you going
to be able to come back and give them that
eight-figure verdict, or are you going to say,
when you’re back with your fellow jurors,
“That’s too much money. I can’t do it.” Which
one are you? Tell me.
JUROR NO. 3:
money.

I think I’ll say it’s too much

Although the focus of the trial court’s questioning
of prospective juror No. 3 was on whether prospective
juror No. 3 could follow the law and award the amount
of damages shown to be warranted by the evidence —
whatever that amount might be — the trial court had
previously made it clear to the prospective jurors that
they would only reach the issue of damages if they first
found liability on the part of appellants. There is nothing in the record to suggest that the trial court improperly “conveyed to potential jurors” a belief that
appellees were “entitled to substantial damages.”
Based on the record before us and giving deference
to the trial court, which saw and heard prospective

App. 24
juror No. 3, we cannot say that the trial court abused
its discretion — much less committed plain error — in
probing the basis of the juror’s reticence toward awarding significant damages during voir dire and ultimately excusing prospective juror No. 3 for cause.
Prospective juror No. 3’s answers to the court’s questions gave reasonable cause for concern that he could
not be fair and impartial and would not follow the law,
supporting a valid challenge under R.C. 2313.17.
Accordingly, appellant’s second assignment of error is overruled.
Exclusion of Expert Testimony
In their third assignment of error, appellants contend that the trial court committed prejudicial error in
precluding their expert, Dr. Jolliff, from testifying that,
based on the results of the hospital’s blood serum alcohol test, Hunt was “impaired” and was unable to operate a vehicle safely at the time of the accident.
Appellants contend the excluded testimony was relevant to issues of comparative negligence and proximate cause. Appellees assert that the trial court
properly limited Dr. Jolliff ’s testimony because his
opinions regarding Hunt’s impairment were not based
on reliable scientific, technical or other specialized information and Dr. Jolliff had no factual basis upon
which to opine that Hunt’s alleged intoxication caused
the accident.
As with other evidence, a trial court has broad discretion in determining whether to admit or exclude

App. 25
expert testimony. Herzner v. Fischer Attached Homes,
Ltd., 12th Dist. Clermont No. CA2007-08-090, 2008Ohio-2261, ¶ 7, citing State v. Jones, 90 Ohio St.3d 403,
414, 739 N.E.2d 300 (2000). The trial judge performs a
“gatekeeping” role to ensure that expert testimony is
sufficiently relevant and reliable to be presented to the
jury. See Evid.R. 402, 702. The trial court must also balance the potential probative value of the evidence
against the danger of unfair prejudice under Evid.R.
403. Schaffter v. Ward, 17 Ohio St.3d 79, 81, 477 N.E.2d
1116 (1985); Licul v. Swagelok Co., 8th Dist. Cuyahoga
No. 86322, 2006-Ohio-711, ¶ 21; Knowlton v. Schultz,
179 Ohio App.3d 497, 2008-Ohio-5984, 902 N.E.2d 548,
¶ 33-34 (1st Dist.). Evid.R. 403(A) mandates the exclusion of even relevant evidence if its probative value is
substantially outweighed by the danger of unfair prejudice, confusion of the issues or misleading the jury.
The party offering expert testimony has the burden of establishing its admissibility. See, e.g., Marcus v.
Rusk Heating & Cooling, Inc., 12th Dist. Clermont No.
CA2012-03-026, 2013-Ohio-528, ¶ 27; State v. Ream, 3d
Dist. Allen No. 1-12-39, 2013-Ohio-4319, ¶ 82. Absent
an abuse of discretion that materially prejudices a
party, a trial court’s decision to admit or exclude evidence “ ‘will stand.’ ” Rieger v. Giant Eagle, Inc., 2018Ohio-1837, 103 N.E.3d 851, ¶ 45 (8th Dist.), quoting
Krischbaum v. Dillon, 58 Ohio St.3d 58, 66, 567 N.E.2d
1291 (1991).
Two trial judges primarily presided over this case
— the trial judge originally assigned to the case, who
handled the pretrial proceedings (the “assigned

App. 26
judge”), and a visiting judge, who presided over the
trial and ruled on post-trial motions (the “visiting
judge”).2
Prior to trial, appellees filed several motions in
limine, including motions in limine to preclude appellants from (1) introducing expert testimony based on
their failure to offer experts for depositions, (2) “asserting intoxication as a defense” and (3) introducing evidence regarding Hunt’s alleged alcohol consumption
and arrest for driving under the influence (“DUI”) in
connection with the accident.3
Appellees argued that because the DUI charge
against Hunt had been dismissed, any evidence that
he was arrested for or charged with a DUI was highly
prejudicial and should be excluded. Appellees further
argued that evidence of Hunt’s blood serum alcohol
test should be excluded because it was unreliable
and there was no evidence that Hunt was actually impaired or intoxicated at the time of the accident.
Appellees also argued that appellants should be precluded from raising an “intoxication defense,” asserting that any such defense could be based only on
conjecture and speculation. Appellants opposed the
motions.
Before the case was “spun” to the visiting judge for
trial, the assigned judge ruled on the parties’ motions
2

The administrative judge ruled on appellees’ motion for
prejudgment interest.
3
Ten months after the accident, Hunt was charged with
driving under the influence. That charge was later dismissed.

App. 27
in limine. The assigned judge granted appellees’ motion in limine to exclude evidence of Hunt’s arrest for
DUI and denied appellees’ motions in limine to preclude appellants from presenting expert testimony,
from asserting intoxication as a defense and from introducing evidence of Hunt’s alleged alcohol consumption. The assigned judge did not explain the reasoning
for his rulings on the motions in limine.
Before trial commenced, the parties attempted to
revisit the assigned judge’s rulings on several of their
motions in limine with the visiting judge, including the
assigned judge’s rulings with respect to the admissibility of testimony by appellants’ expert, Dr. Jolliff. Appellees argued that they had only recently learned that
appellants intended to call Dr. Jolliff as a witness at
trial. They also claimed that his testimony should be
excluded because he had used a “questionable methodology” in formulating his opinions and the blood test he
relied upon was unreliable.
The visiting judge deferred to the assigned judge’s
rulings and indicated that Dr. Jolliff would be permitted to testify at trial. However, to address appellees’
concern that Dr. Jolliff had only recently been identified as a trial witness and had not been made available
for a discovery deposition, the visiting judge ordered
that Dr. Jolliff be subject to a discovery deposition before videotaping his testimony for trial. The visiting
judge continued the trial a day so that this could occur.
After the parties videotaped Dr. Jolliff ’s trial testimony, appellees asked the visiting judge to rule on

App. 28
their objections. Appellees objected to portions of Dr.
Jolliff ’s videotaped trial testimony on the grounds that
he was testifying regarding matters that were outside
the scope of his expert report and was offering opinions
regarding Hunt’s alleged “impairment” that were to
have been excluded based on the trial court’s previous
rulings on appellees’ motions in limine. The visiting
judge heard from the parties and separately ruled on
each objection. Where the visiting judge sustained appellees’ objections, those portions of Dr. Jolliff ’s videotaped trial testimony were redacted and not played
for the jury.
In their brief, appellants cite to only the following
testimony by Dr. Jolliff as being improperly excluded
at trial:
[COUNSEL]: Okay. So you still, despite the
questions put to you by opposing counsel, are
of the opinion that whatever his alcohol level
was, Mr. Hunt was impaired in terms of safely
operating his vehicle, correct?
A. With the alcohol level that’s demonstrated here, I agree, yes.
For each assignment of error presented for review,
an appellant is required to identify the specific parts of
the record where the alleged error occurred. See App.R.
16(A)(7) (requiring that appellant’s brief include “[a]n
argument containing the contentions of the appellant
with respect to each assignment of error presented for
review and the reasons in support of the contentions,
with citations to the authorities, statutes, and parts of

App. 29
the record on which appellant relies”). “This rule is designed ‘to aid the reviewing court in determining
whether any reversible error occurred in the lower
court by having the complaining party specify the exact location(s) where such a determination can be
made.’ ” Mayfair Village Condominium Owners Assn. v.
Grynko, 8th Dist. Cuyahoga No. 99264, 2013-Ohio2100, ¶ 6, quoting Hildreth Mfg. v. Semco, Inc., 151
Ohio App.3d 693, 2003-Ohio-741, 785 N.E.2d 774, ¶ 32
(3d Dist.). An appellate court may disregard an assignment of error when the appellant fails to identify the
relevant portions of the record upon which an assignment of error is based. See App.R. 12(A)(2) (“The court
may disregard an assignment of error presented for review if the party raising it fails to identify in the record
the error on which the assignment of error is based
* * * .”); see also Mayfair Village Condominium Owners
Assn. at ¶ 6 (An appellate court is “not obliged to scour
the record in search of evidence to support an appellant’s assignment of error.”), citing Nob Hill E. Condominium Assn. v. Grundstein, 8th Dist. Cuyahoga No.
95919, 2011-Ohio-2552, ¶ 11.
The trial court permitted Dr. Jolliff to testify regarding the results of Hunt’s blood serum alcohol test,
how hospitals typically perform blood serum alcohol
tests, his belief that the test results were valid and accurate, how he converted Hunt’s blood serum alcohol
level to a whole blood alcohol level and the results of
that conversion — i.e., a whole blood level somewhere
in the range of 104.2 milligrams per deciliter to 113.6
milligrams per deciliter, with 108.9 milligrams per

App. 30
deciliter (0.109 grams per deciliter) as the median. The
trial court also permitted Dr. Jolliff to testify regarding
how people generally metabolize alcohol and that,
based on the test results, Hunt’s blood serum alcohol
level was “elevated”:
We have a lot of science on motor vehicle operation and also * * * impairing effects of alcohol and basing it on levels that are drawn.
Mr. Hunt’s level was 125 milligrams per deciliter, or 0.125 grams per liter, which was elevated.
However, the trial court did not allow Dr. Jolliff to
testify to matters outside the scope of his expert report.
The trial court also precluded Dr. Jolliff from opining
that Hunt was “driving outside the legal limits” and
that the “elevated” nature of Hunt’s blood alcohol serum level meant that Hunt was “intoxicated” or “impaired” at the time of the accident.
On the record before us, we cannot say that the
trial court abused its discretion in excluding the testimony at issue.
The sole basis for Dr. Jolliff ’s opinion that Hunt
was impaired at the time of the accident was the results of Hunt’s blood serum alcohol test. According to
Dr. Jolliff, the test results indicated that they were
“presumptive only”; no confirmation testing of the results had been done. By the time of trial, the hospital
where the blood serum alcohol test had been administered was closed such that there was no one who could
authenticate the test results.

App. 31
No field sobriety tests were performed on Hunt.
There is no evidence that anyone smelled alcohol on
Hunt or observed anything to suggest that Hunt was
intoxicated or impaired from alcohol use at the time of
the accident. Dr. Jolliff had no information regarding
what or how much Hunt had to drink that evening or
over what period of time he had been drinking. Likewise, he had no information regarding Hunt’s behavior
or his physical or mental condition prior to the accident. Dr. Jolliff had no opinion as to what caused the
crash and could not state that Hunt’s alleged impairment had a causative role in the crash.
Further, the particular testimony appellants identify in their brief as having been improperly excluded
at trial was elicited during appellants’ counsel’s redirect examination of Dr. Jolliff. The reason this testimony was not offered at trial was not due solely to the
trial court’s rulings on appellees’ motions in limine.
This testimony was excluded because appellees decided not to cross-examine Dr. Jolliff. Although appellees had conducted a cross-examination of Dr. Jolliff as
part of his videotaped trial testimony, at trial, they decided not to cross-examine him. Accordingly, only the
direct examination portion of Dr. Jolliff ’s previously
videotaped trial testimony was admitted into evidence
and played for the jury. The cross-examination and redirect examination portions of his videotaped trial testimony were not admitted into evidence and were not
played for the jury.
Accordingly, we overrule appellants’ third assignment of error.

App. 32
Exclusion of Evidence of Criminal Record
of Witness
In their fourth assignment of error, appellants argue that the trial court abused its discretion by refusing to admit “hard copy evidence” of Douglas’ prior
convictions under Evid.R. 609. Appellants contend that
they should have been permitted to introduce certified
copies of journal entries in two Cuyahoga County Common Pleas Court cases, reflecting Douglas’ prior convictions for felonious assault and a drug-related
charge, into evidence for impeachment purposes.
A witness may be impeached by proof of a prior
conviction in accordance with Evid.R. 609. That rule
provides, in relevant part:
(A) General rule. For the purpose of attacking the credibility of a witness:
(1) Subject to Evid.R. 403, evidence that
a witness other than the accused has
been convicted of a crime is admissible if
the crime was punishable by death or imprisonment in excess of one year pursuant to the law under which the witness
was convicted.
(2) Notwithstanding Evid.R. 403(A), but
subject to Evid.R. 403(B), evidence that
the accused has been convicted of a crime
is admissible if the crime was punishable
by death or imprisonment in excess of one
year pursuant to the law under which the
accused was convicted and if the court determines that the probative value of the

App. 33
evidence outweighs the danger of unfair
prejudice, of confusion of the issues, or of
misleading the jury.
(3) Notwithstanding Evid.R. 403(A), but
subject to Evid.R. 403(B), evidence that
any witness, including an accused, has
been convicted of a crime is admissible if
the crime involved dishonesty or false
statement, regardless of the punishment
and whether based upon state or federal
statute or local ordinance.
(B) Time limit. Evidence of a conviction under this rule is not admissible if a period of
more than ten years has elapsed since the
date of the conviction or of the release of the
witness from the confinement, or the termination of community control sanctions, postrelease control, or probation, shock probation,
parole, or shock parole imposed for that conviction, whichever is the later date, unless the
court determines, in the interests of justice,
that the probative value of the conviction supported by specific facts and circumstances
substantially outweighs its prejudicial effect.
***
Evid.R. 609(F) specifies the methods by which a
party may prove a conviction of a crime for purpose of
impeaching a witness. That rule provides:
When evidence of a witness’s conviction of a
crime is admissible under this rule, the fact
of the conviction may be proved only by
the testimony of the witness on direct or

App. 34
cross-examination, or by public record shown
to the witness during his or her examination.
If the witness denies that he or she is the person to whom the public record refers, the court
may permit the introduction of additional evidence tending to establish that the witness is
or is not the person to whom the public record
refers.
In this case, Douglas was questioned regarding his
criminal record both during his direct and crossexaminations. He freely admitted that he had pled
guilty to a felonious assault charge in 2010 and a drugrelated charge in 2006. During his cross-examination,
appellants’ counsel not only questioned Douglas regarding his criminal record, she also showed him copies of the journal entries relating to his convictions and
had him read from them. Appellants’ counsel then
sought to have the copies of the journal entries admitted into evidence as exhibits. The trial court refused to
do so on the ground that Douglas had already testified
as to his criminal convictions. The trial court stated:
“You can talk about what [Douglas] testified to all you
want but his [criminal] record [is] * * * not going back
[to the jury].”
In this case, consistent with Evid.R. 609(F), appellants were permitted to prove Douglas’ prior convictions both by questioning him and showing him the
journal entries relating to his convictions during his
cross-examination. Appellants have not shown that
the trial court abused its discretion in refusing to admit the “hard copies” of the journal entries into

App. 35
evidence. Further, given that Douglas testified regarding his convictions, appellants have not demonstrated
that they were in any way prejudiced by the trial
court’s ruling. Appellants’ fourth assignment of error is
overruled.
Alleged Juror Misconduct
In their fifth assignment of error, appellants argue
that the trial court abused its discretion in failing to
grant a mistrial after a juror provided tissues to two
witnesses who began crying during their testimony.
Appellants further contend that they were prejudiced
by this “extreme juror misconduct.” Appellants’ argument is meritless.
The first instance of alleged juror misconduct occurred during Conard’s direct examination. While testifying regarding her injuries and the pain she has
experienced since the accident, Conard began crying.
The record reflects that juror No. 5 “[h]and[ed] tissues”
for the crying witness.4 The second instance of alleged
juror misconduct occurred during the testimony of
Hunt’s sister, Doris Riffe.5 Riffe began crying as she
4

It is unclear from the record whether the juror handed tissues to Conard directly or whether she handed them to Conard’s
attorney to give to Conard. Appellants assert that the juror left
the jury box and handed a box of tissues to Conard directly. Appellees contend that the juror handed a box of tissues to appellees’
counsel to give to Conard.
5
In their brief, appellants assert that the first instance of
this alleged juror misconduct occurred during the testimony of
Margaret Wyatt (Hunt’s younger sister). However, the trial

App. 36
described what occurred when Hunt “finally woke up”
after the accident and asked for her. Once again, the
record reflects that juror No. 5 “[h]and[ed] tissues” for
the crying witness.6
First, we do not agree with appellants’ characterization of the juror’s actions in this case as “misconduct.” Offering a tissue to someone who is crying is a
simple act of common courtesy — not misconduct. Appellants have not cited a single case in which similar
actions by a juror were found to constitute juror misconduct warranting a mistrial. Second, appellants did
not object to the juror’s actions or request a mistrial at
the time the incidents occurred. Accordingly, appellants waived all but plain error, which has not been established here. See, e.g., Sanderfer, 8th Dist. Cuyahoga
No. 104720, 2017-Ohio-1552, at ¶ 8; Goldfuss, 79 Ohio
St.3d at 121-123, 679 N.E.2d 1099.
Third, appellants have not shown that the juror’s
actions prejudiced appellants in any way. Contrary to
appellants’ assertions, neither the fact that juror No. 5
ultimately became the jury foreperson nor the fact that
the jury submitted questions to the court during their
transcript reflects that juror No. 5 first provided tissues to Conard
and that she later provided tissues to Doris Riffe (Hunt’s oldest
sister). There is no indication in the trial transcript that juror No.
5 provided tissues to Wyatt. Both Wyatt and Riffe testified after
Conard.
6
Once again, it is unclear from the record whether juror No.
5 handed the tissues directly to the witness. In their reply brief,
appellants assert that when the juror “approached a ‘distraught’
Ms. Margaret Wyatt [sic],” the bailiff “intercepted” the juror, took
the box of tissues from her and handed them to the witness.

App. 37
deliberations relating to damages establishes that the
juror No. 5’s actions in providing tissues to two crying
witnesses “clearly affected the jury verdict.” We overrule appellants’ fifth assignment of error.
Manifest Weight of the Evidence — Hunt’s
Failure to Look Left
In their sixth assignment of error, appellants contend that the jury’s verdict in favor of appellees is
against the manifest weight of the evidence because
Hunt testified that he looked only to the right — and
did not look to the left — before his vehicle was struck
by Officer Carroscia’s vehicle.
The manifest weight of the evidence involves a
party’s burden of persuasion. Eastley v. Volkman, 132
Ohio St.3d 328, 2012-Ohio-2179, 972 N.E.2d 517, ¶ 19,
23. In assessing whether a jury’s verdict is against the
manifest weight of the evidence, we examine the entire
record, weigh the evidence and all reasonable inferences, consider the witnesses’ credibility, and determine whether, in resolving conflicts in the evidence,
the jury “ ‘clearly lost its way and created such a manifest miscarriage of justice’ ” that the verdict must be
overturned and a new trial ordered. State v. Thompkins, 78 Ohio St.3d 380, 387, 678 N.E.2d 541 (1997),
quoting State v. Martin, 20 Ohio App.3d 172, 175, 485
N.E.2d 717 (1983); Eastley at ¶ 17-20.
When reviewing conflicting testimony, an appellate court is guided by a presumption that the findings
of the trier of fact are correct. Seasons Coal Co., Inc. v.

App. 38
Cleveland, 10 Ohio St.3d 77, 80, 461 N.E.2d 1273
(1984). This presumption arises because the trier of
fact had an opportunity “to view the witnesses and observe their demeanor, gestures and voice inflections,
and use these observations in weighing the credibility
of the proffered testimony.” Id. Thus, “to the extent that
the evidence is susceptible to more than one interpretation,” we will “construe it consistently with the jury’s
verdict.” Berry v. Lupica, 196 Ohio App.3d 687, 2011Ohio-5381, 965 N.E.2d 318, ¶ 22 (8th Dist.), citing Ross
v. Ross, 64 Ohio St.2d 203, 414 N.E.2d 426 (1980); see
also Seasons Coal at 80, fn. 3 (“ ‘[I]n determining
whether the judgment below is manifestly against the
weight of the evidence, every reasonable intendment
and every reasonable presumption must be made in favor of the judgment and the finding of facts. * * * If the
evidence is susceptible of more than one construction,
the reviewing court is bound to give it that interpretation which is consistent with the verdict and judgment,
most favorable to sustaining the verdict and judgment.’ ”), quoting 5 Ohio Jurisprudence 3d, Appellate
Review, Section 60, at 191-192 (1978).
Appellants assert that Hunt’s testimony that he
did not look both ways before entering the intersection
could only be reasonably interpreted as a failure to exercise due care and that a reasonable factfinder should
have found that Hunt’s own negligence in failing to
look left before entering the intersection was the proximate cause of the accident.
But Hunt, Conard and Douglas all testified that
the traffic light facing Hunt was green as he entered

App. 39
the intersection. They further testified that Officer
Carroscia’s emergency lights and sirens were not activated as he approached the intersection. If their testimony is believed, there was no reason for Hunt to look
left before proceeding through the intersection. Hunt
testified that he looked to the right as he entered the
intersection because there was an inoperable traffic
light to the right of the functioning traffic signal controlling the traffic in his direction. Hunt further testified that he did not look left because he did not have
time to do so. As he was looking right, his vehicle was
struck on the driver side by Officer Carroscia’s vehicle.
As Hunt explained:
[COUNSEL]:
to the left?
A.

Mr. Hunt, why didn’t you look

‘Cause I looked to the right first.

Q. Why didn’t — is that the reason you did
not look to the left?
A. It was two traffic lights. The one on the
right side was out. I think anybody’s first
thought would look that way ‘cause it’s out. I
never got a chance to look to the left.
Although appellants offered conflicting evidence
— Officer Carroscia and Sergeant Gardner testified
that Officer Carroscia had the green light and that he
had his emergency lights and sirens activated as he
approached the intersection — it was for the jury to
decide whom and what to believe. Following a thorough review of the record, we cannot say that, in

App. 40
resolving conflicts in the evidence, the jury clearly lost
its way and created such a manifest miscarriage of justice that the verdict must be overturned and a new
trial ordered. The jury’s verdict was not against the
manifest weight of the evidence, and we decline to disturb it.
Appellants’ sixth assignment of error is overruled.
Evidence of Insurance Benefits
In their seventh assignment of error, appellants
contend that the trial court abused its discretion in
precluding them from questioning Hunt’s sister, Margaret Wyatt, regarding various “insurance set-offs”
Hunt received as a result of the accident. Appellants
contend that they were entitled to introduce such evidence at trial pursuant to R.C. 2744.05(B)(1). That provision provides, in relevant part:
If a claimant receives or is entitled to receive
benefits for injuries or loss allegedly incurred
from a policy or policies of insurance or any
other source, the benefits shall be disclosed to
the court, and the amount of the benefits shall
be deducted from any award against a political subdivision recovered by that claimant. No
insurer or other person is entitled to bring an
action under a subrogation provision in an insurance or other contract against a political
subdivision with respect to those benefits.
The amount of the benefits shall be deducted
from an award against a political subdivision
under division (B)(1) of this section regardless

App. 41
of whether the claimant may be under an obligation to pay back the benefits upon recovery, in whole or in part, for the claim. * * *
(Emphasis added.)
As the statute clearly indicates, the means by
which a political subdivision obtains a credit or setoff
for insurance benefits is through “disclos[ure]” of such
benefits “to the court” — not by presenting evidence for
the jury’s consideration at trial. As this court explained
in Jones v. MetroHealth Med. Ctr., 2017-Ohio-7329, 89
N.E.3d 633 (8th Dist.):
R.C. 2744.05(B) requires a post-trial hearing
in which the trial judge is authorized to
hear additional evidence. The text of R.C.
2744.05(B)(1) states that if a claimant receives or is entitled to receive benefits for injuries or loss, those benefits “shall be disclosed
to the court[.]” Although the statute does not
explicitly state who has the duty to disclose a
claimant’s receipt of benefits, the claimant, as
the party in receipt of the benefits that might
be subject to offset, would be in the best position to make disclosure to the court.
We also believe that R.C. 2744.05(B)(1) requires a post-trial proceeding because mandatory offset implicates the collateral source
rule — the jury’s knowledge that a political
subdivision might be entitled to a statutory
damages deduction could improperly affect its
determination of damages. What is more, evidence going to a political subdivision’s status
at trial would be irrelevant to the underlying

App. 42
action. For these reasons, we hold that R.C.
2744.05(B) sanctions a bifurcated proceeding
where the court, not the jury, decides the
amount that must be offset from a damage
award against a political subdivision for any
benefits a claimant has received, or is entitled
to receive, for a loss or injury.
Id. at ¶ 19-20. Accordingly, appellants were not entitled to introduce evidence of any insurance offsets to
which they might [sic] entitled under R.C. 2744.05(B)(1)
through the testimony of witnesses at trial. Appellants’
seventh assignment of error is overruled.
Motion for New Trial
In their eighth and final assignment of error, appellants contend that the trial court erred in denying
their motion for a new trial because (1) the record
demonstrates that Officer Carroscia was on an emergency call at the time of the accident; (2) there was no
evidence that Officer Carroscia acted with malicious
purpose, in bad faith or in a willful, wanton or reckless
manner and (3) the trial court improperly admitted the
expert report of Detective Rice into evidence.
As an initial matter, we note that, in their brief,
appellants frequently cite to the summary judgment
record rather than the trial court record to support
their arguments. It is, however, the evidence that
was presented at trial, not what was presented at summary judgment, that matters at this stage of the proceedings. For this reason alone, we could disregard

App. 43
appellants’ assignment of error. See App.R. 12(A)(2);
App.R. 16(A)(7). Even if we were to consider appellants’ arguments, however, we would find no error by
the trial court in denying appellants’ motion for a new
trial.
Civ.R. 59(A) sets forth the grounds for granting a
new trial. Civ.R. 59(A)(6) — the section under which it
appears appellants contend the trial court should have
granted a new trial — provides that “[a]new trial may
be granted to all or any of the parties and on all or part
of the issues” where “[t]he judgment is not sustained
by the weight of the evidence.” The decision whether to
grant a new trial under Civ.R. 59(A)(6) is within the
sound discretion of the trial court and will not be reversed absent a showing that its decision was unreasonable, arbitrary or unconscionable. Shaw Steel, Inc.
v. Ronfeldt Mfg., L.L.C., 8th Dist. Cuyahoga No.
102665, 2016-Ohio-1117, ¶ 36; Yungwirth v. McAvoy,
32 Ohio St.2d 285, 286, 291 N.E.2d 739 (1972).
With respect to the liability of East Cleveland,
R.C. 2744.02(B) provides in relevant part:
Subject to sections 2744.03 and 2744.05 of the
Revised Code, a political subdivision is liable
in damages in a civil action for injury, death,
or loss to person or property allegedly caused
by an act or omission of the political subdivision or of any of its employees in connection
with a governmental or proprietary function,
as follows:
(1) Except as otherwise provided in this
division, political subdivisions are liable

App. 44
for injury, death, or loss to person or property caused by the negligent operation of
any motor vehicle by their employees
when the employees are engaged within
the scope of their employment and authority. The following are full defenses to
that liability:
(a) A member of a municipal corporation police department or any
other police agency was operating a
motor vehicle while responding to an
emergency call and the operation of
the vehicle did not constitute willful
or wanton misconduct * * * .
Officer Carroscia’s individual liability is governed
by R.C. 2744.03(A)(6). Cramer v. Auglaize Acres, 113
Ohio St.3d 266, 2007-Ohio-1946, 865 N.E.2d 9, ¶ 17.
Pursuant to R.C. 2744.03(A)(6), an employee of a political subdivision is immune from liability unless: (1) the
employee’s acts or omissions were manifestly outside
the scope of the employee’s employment or official responsibilities; (2) the employee’s acts or omissions
were with malicious purpose, in bad faith, or wanton
or reckless or (3) civil liability is expressly imposed
upon the employee by another section of the Revised
Code.
Thus, even assuming Officer Carroscia was on an
emergency call at the time of the accident, appellants
could still be liable for any injuries caused by Officer

App. 45
Carroscia if Officer Carroscia was found to have acted
wantonly and/or willfully and recklessly.7
“Wanton misconduct” has been defined as “the failure to exercise any care toward those to whom a duty
of care is owed in circumstances in which there is great
probability that harm will result.” Anderson v. Massillon, 134 Ohio St.3d 380, 2012-Ohio-5711, 983 N.E.2d
266, ¶ 33, citing Hawkins v. Ivy, 50 Ohio St.2d 114, 117118, 363 N.E.2d 367 (1977), and Black’s Law Dictionary 1613-1614 (8th Ed.2004) (explaining that one
acting in a wanton manner is aware of the risk of the
conduct but is not trying to avoid it and is indifferent
to whether harm results); see also Hunt, 8th Dist.
Cuyahoga No. 103468, 2016-Ohio-3176, at ¶ 22.
“Willful misconduct” is “an intentional deviation
from a clear duty or from a definite rule of conduct, a
deliberate purpose not to discharge some duty necessary to safety, or purposely doing some wrongful acts
with knowledge or appreciation of the likelihood of resulting injury.” Anderson at ¶ 32, citing Tighe v. Diamond, 149 Ohio St. 520, 527, 80 N.E.2d 122 (1948), and
Black’s Law Dictionary at 1630 (describing willful conduct as the voluntary or intentional violation or disregard of a known legal duty); see also Hunt at ¶ 22.

7

Appellees have not argued that Officer Carroscia acted with
malicious purpose or in bad faith. Likewise, there is no claim that
Officer Carroscia’s actions were “manifestly outside the scope of
[his] employment or official responsibilities” or that civil liability
is expressly imposed by another section of the Revised Code. Accordingly, we do not address those issues here.

App. 46
“Reckless conduct” involves “the conscious disregard of or indifference to a known or obvious risk of
harm to another that is unreasonable under the
circumstances and is substantially greater than negligent conduct.” Anderson, 134 Ohio St.3d 380, 2012Ohio-5711, 983 N.E.2d 266, at ¶ 34, citing Thompson v.
McNeill, 53 Ohio St.3d 102, 104-105, 559 N.E.2d 705
(1990), and Black’s Law Dictionary at 1298-1299 (explaining that reckless conduct is characterized by a
substantial and unjustifiable risk of harm to others
and a conscious disregard of or indifference to the risk,
but the actor does not desire harm); see also Hunt at
¶ 26. The jury was instructed regarding each of these
definitions.
In this case, there is substantial competent, credible evidence in the record upon which the jury could
have reasonably found that Officer Carroscia acted
wantonly, willfully and recklessly in causing the accident at issue. As detailed above, appellants presented
evidence that Officer Carroscia (1) was operating his
vehicle at a high rate of speed (2) under a suspended
license (3) without his lights and sirens activated (4) in
an area in which there was a gas station open for business and a number of patrons frequenting bars and (5)
ran a red light, crashing into Hunt’s vehicle. There is
also evidence that Officer Carroscia failed to follow applicable policies and procedures designed to protect the
safety of the public and police officers. See Anderson at
¶ 37 (“the violation of a statute, ordinance, or departmental policy enacted for the safety of the public is not
per se willful, wanton, or reckless conduct, but may be

App. 47
relevant to determining the culpability of a course of
conduct”).
Although appellants offered conflicting testimony,
once again, it was for the jury to decide whom and what
to believe.
Appellants also contend that they should have
been granted a new trial based on the trial court’s admission of Officer Rice’s expert report. However, Officer
Rice’s expert report was not, in fact, admitted into evidence at trial. Accordingly, appellants’ argument is
meritless.
Based on the record before us, we cannot say that
the trial court acted unreasonably, arbitrarily or unconscionably in denying appellants’ motion for a new
trial. We overrule appellants’ eighth assignment of error.
Judgment affirmed.
It is ordered that appellees recover from appellants the costs herein taxed.
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate be sent to the
Cuyahoga County Common Pleas Court to carry this
judgment into execution.

App. 48
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/ Eileen A. Gallagher
EILEEN A. GALLAGHER, JUDGE
MARY EILEEN KILBANE, A.J., and
MICHELLE J. SHEEHAN, J., CONCUR.

App. 49
APPENDIX B
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CHARLES D. HUNT,
et al.
Plaintiffs,
-vsCITY OF EAST
CLEVELAND, et al.
Defendants.

)
)
)
)
)
)
)
)
)

CASE NO.:
CV-11-755540
JUDGE JOSEPH
GIBSON
ORDER
(Filed Dec. 11, 2018)

This matter came before the Court on Plaintiffs’
Motion for Prejudgment Interest. Upon due consideration and for good cause shown, Plaintiffs’ motion is
well-taken and is hereby GRANTED. It is therefore
ORDERED that Plaintiffs be awarded prejudgment interest. Plaintiff Charles Hunt shall be awarded prejudgment interest on the jury’s compensatory damages
award of $6,119,738 and Plaintiff Merylin Conard
shall be awarded prejudgment interest on the jury’s
compensatory damages award of $1,590,442. Pursuant
to R.C. § 1343.03(C)(1)(c)(i), prejudgment interest shall
be calculated from the date that the case was first filed
on March 10, 2009 to the date that the judgment was
rendered on April 27, 2017. Plaintiffs are entitled to
interest at the rate per annum determined pursuant to
R.C. § 5703.47. In accordance with R.C. § 5703.47,
Plaintiff Charles Hunt is awarded prejudgment interest in the amount of $1,958,316.16. Plaintiff Merilyn

App. 50
Conard is awarded prejudgment interest in the
amount of $508,941.44.
IT IS SO ORDERED.
Date: 12/11, 2018

/s/ J J Gibson
12/11/18
Judge Joseph Gibson
This entry is taken by Administrative Judge John Russo

App. 51
APPENDIX C
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CHARLES D. HUNT ETAL
Plaintiff [sic]

Case No:
CV-11-755540

CITY OF CLEVELAND ETAL Judge: DAVID T
Defendant [sic]
MATIA
JOURNAL ENTRY
(Filed Dec. 11, 2018)
96 DISP.OTHER - FINAL
ORDER ON PLAINTIFF’S [sic] MOTION FOR PREJUDGMENT INTEREST. THERE IS NO JUST CAUSE
FOR DELAY. FINAL. OSJ.
COURT COST ASSESSED AS DIRECTED.
PURSUANT TO CIV.R. 58(B), THE CLERK OF
COURTS IS DIRECTED TO SERVE THIS JUDGMENT IN A MANNER PRESCRIBED BY CIV.R. 5(B).
THE CLERK MUST INDICATE ON THE DOCKET
THE NAMES AND ADDRESSES OF ALL PARTIES,
THE METHOD OF SERVICE, AND THE COSTS ASSOCIATED WITH THIS SERVICE.
_________________________________________
Judge Signature
Date

App. 52
APPENDIX D
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CHARLES D. HUNT ETAL
Plaintiff [sic]

Case No:
CV-11-755540

CITY OF CLEVELAND ETAL Judge: DAVID T
Defendant [sic]
MATIA
JOURNAL ENTRY
(Filed Jun. 13, 2018)
DEFENDANTS’ MOTION FOR JUDGMENT NOTWITHSTANDING THE VERDICT OR ALTERNATIVELY MOTION FOR A NEW TRIAL, FILED
05/24/2017, IS DENIED. THERE IS NOT JUST
CAUSE FOR DELAY.
THIS ENTRY TAKEN BY JUDGE JOSEPH GIBSON.
/s/ Joseph Gibson
Judge Signature

6/8/18
Date

App. 53
APPENDIX E
The Supreme Court of Ohio
)
)
v.
)
)
City of East Cleveland, et al.
)
Charles Hunt, et al.

Case No. 2019-0554
ENTRY
(Filed Jul. 24, 2019)

Upon consideration of the jurisdictional memoranda filed in this case, the court declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
It is further ordered that appellants’ motion to
strike certain law mischaracterizations in memorandum in response is denied.
(Cuyahoga County Court of Appeals; No. 105953)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

